No. 19-1021

Ix Tuu

Sttprem e @ourt st tbe CIHnfte[ btutes
Mrces Jsssop; Bntttax AsHJtax,
Petitioners,
v.

Clrv oF FRgsNo, ETAL.,
Respondents.

RULE 33.1(h) CERTIFTCATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certifu that the Brief of
Constitutional Accountability Center as Amicus Cu,riae in Support of Petitioners
contains 5,943 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty
Executed on April 13,2020.

Brianne J. GWod
Counsel for Amicus Curiae

of perjury that the foregoing is true and comect.

